                     AUDIT OF
          COMPLIANCE WITH STANDARDS
     GOVERNING COMBINED DNA INDEX SYSTEM
ACTIVITIES AT THE LAS VEGAS METROPOLITAN POLICE
      DEPARTMENT’S FORENSIC LABORATORY
                LAS VEGAS, NEVADA

            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division

           Audit Report GR-90-12-002
                   July 2012
                       AUDIT OF
            COMPLIANCE WITH STANDARDS
       GOVERNING COMBINED DNA INDEX SYSTEM
  ACTIVITIES AT THE LAS VEGAS METROPOLITAN POLICE
        DEPARTMENT’S FORENSIC LABORATORY
                  LAS VEGAS, NEVADA

                             EXECUTIVE SUMMARY

      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Las Vegas
Metropolitan Police Department’s Forensic Laboratory (LVMPD Laboratory) in
Las Vegas, Nevada.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System is used at the state level to serve as a state’s DNA database


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
and contains DNA profiles from local laboratories and state offenders. The
Local DNA Index System is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from September 2009 through
August 2011. The objectives of our audit were to determine if the:
(1) LVMPD Laboratory was in compliance with the NDIS participation
requirements; (2) LVMPD Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) LVMPD Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS.

     Our review determined the following:

     •   The LVMPD Laboratory was in compliance with the NDIS
         participation requirements we tested, including: (1) current NDIS
         eligibility training for LVMPD Laboratory personnel; (2) availability
         and accessibility of NDIS procedures for CODIS users; and
         (3) adequate security for CODIS equipment that was located in a
         controlled laboratory space.

     •   The LVMPD Laboratory was in compliance with the QAS we
         reviewed, including: (1) completion of periodic internal and
         external QAS reviews; (2) implementation of corrective actions
         presented by internal and external reviews; and (3) had procedures
         in place to help ensure that access to the Laboratory was controlled
         and limited to authorized personnel. Finally, at the time of our
         audit, we found the LVMPD Laboratory did not outsource the
         analysis of its forensic DNA samples to another laboratory.

     •   We reviewed 100 of the LVMPD Laboratory’s 2,650 forensic profiles
         that have been uploaded to NDIS as of August 26, 2011. Of the
         100 forensic profiles sampled, we found that 91 profiles were
         complete, accurate, and allowable. However, we also found
         seven profiles that were unallowable and two more profiles were
         deemed inappropriate for inclusion in NDIS. Specifically, we
         identified the following unallowable profiles: (1) one profile that
         matched the victim’s DNA profile, (2) three profiles that were
         obtained from the suspect’s person or residence, (3) one profile
         uploaded that was not attributable to a putative perpetrator, and
         (4) two profiles that pertained to an item that was not connected to
         a crime. Another profile was deemed inappropriate for inclusion in
         NDIS because the laboratory had not yet attempted to gain an


                                     - ii -
         elimination standard to rule out the victim. The LVMPD agreed and
         removed this profile. Finally, the LVMPD removed one more profile
         deemed inappropriate because it was based on a mixture containing
         DNA from several individuals with no major contributor. In addition
         to these nine profiles, the LVMPD Laboratory removed another
         two profiles from NDIS that were not part of our sample, but were
         associated with the sample profiles tested. In total, the LVMPD
         removed 11 profiles from NDIS as a result of our review.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with LVMPD Laboratory officials
and have included their comments in the report as applicable. In addition,
we requested from the LVMPD Laboratory and the FBI written responses to a
draft copy of our audit report. We received those responses and they are
found in Appendices III and IV, respectively. Based on our report that
contained no recommendations and the responses that we received, we
issue this final report closed.




                                     - iii -
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1
       Background ................................................................................. 1
       OIG Audit Objectives .................................................................... 1
       Legal Foundation for CODIS .......................................................... 2
       CODIS Structure .......................................................................... 2
       Laboratory Information ................................................................. 6

FINDINGS ......................................................................................... 7
I.     Compliance with NDIS Participation Requirements ............................ 7
           Results of the OIG Audit ........................................................... 7
           Conclusion .............................................................................. 9
II.    Compliance with Quality Assurance Standards ............................... 10
           Results of the OIG Audit ......................................................... 10
           Conclusion ............................................................................ 13
III.   Suitability of Forensic DNA Profiles in CODIS Databases .................. 14
           Results of the OIG Audit ......................................................... 15
           Conclusion ............................................................................ 17

APPENDICES:

I.     OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 18
II.    AUDIT CRITERIA .................................................................... 21
III. AUDITEE RESPONSE ............................................................... 25
IV.    DEPARTMENT OF JUSTICE RESPONSE..................................... 26
                       AUDIT OF
            COMPLIANCE WITH STANDARDS
       GOVERNING COMBINED DNA INDEX SYSTEM
  ACTIVITIES AT THE LAS VEGAS METROPOLITAN POLICE
        DEPARTMENT’S FORENSIC LABORATORY
                  LAS VEGAS, NEVADA

                                 INTRODUCTION

      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Las Vegas
Metropolitan Police Department’s Forensic Laboratory (LVMPD Laboratory) in
Las Vegas, Nevada.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit covered the period from September 2009 through August
2011. The objectives of our audit were to determine if the: (1) LVMPD
Laboratory was in compliance with the National DNA Index System (NDIS)
participation requirements; (2) LVMPD Laboratory was in compliance with
the Quality Assurance Standards (QAS) issued by the FBI; and (3) LVMPD
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. Appendix I contains a detailed
description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and

      2
          42 U.S.C.A. § 14132 (2006).
                                        -2-
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. NDIS contains the following eight searchable
indices:




                                              -3-
       •   Convicted Offender Index contains profiles generated from persons
           convicted of qualifying offenses. 3

       •   Arrestee Index is comprised of profiles developed from persons who
           have been arrested, indicted, or charged in an information with a
           crime.

       •   Legal Index consists of profiles that are produced from DNA
           samples collected from persons under other applicable legal
           authorities. 4

       •   Detainee Index contains profiles from non-U.S. persons detained
           under the authority of the U.S. and required by law to provide a
           DNA sample for analysis and entry into NDIS.

       •   Forensic Index profiles originate from, and are associated with,
           evidence found at crime scenes.

       •   Missing Person Index contains known DNA profiles of missing
           persons and deduced missing persons.

       •   Unidentified Human (Remains) Index holds profiles from
           unidentified living individuals and the remains of unidentified
           deceased individuals. 5

       •   Relatives of Missing Person Index is comprised of DNA profiles
           generated from the biological relatives of individuals reported
           missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may

       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.

       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.

       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.
                                             -4-
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases.

      6
          A “loci” is a specific location on a chromosome. The plural form of locus is loci.
                                             -5-
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. Further, laws and
regulations exclude certain types of profiles from being uploaded to CODIS
to prevent violations to an individual’s privacy and foster the public’s
confidence in CODIS. Therefore, it is the responsibility of the LVMPD
Laboratory to ensure that it is adhering to the NDIS participation
requirements and the profiles uploaded to CODIS are complete, accurate,
and allowable for inclusion in NDIS.

Laboratory Information

      According to Laboratory officials, the LVMPD Laboratory annually
serves more than 30 different law enforcement agencies located throughout
Southern Nevada. In total, the LVMPD Laboratory serves a population size
of 1.9 million people in Clark County, Nevada, another half a million people
from neighboring counties (made up of Nye, Lincoln, and Esmeralda), and
up to 3 million tourists who visit Las Vegas each month. The LVMPD
Laboratory participates in the CODIS program as a LDIS laboratory. In
addition to maintaining a Forensic database, the LVMPD Laboratory also
maintains a Convicted Offender database. The LVMPD Laboratory began
analyzing DNA in 1997, and began processing evidence in criminal cases and
uploading forensic profiles into NDIS in 2001.

      The LVMPD Laboratory was last accredited for 5 years by the American
Society of Crime Laboratory Directors/Laboratory Accreditation Board
(ASCLD/LAB) in July 2008. Thus, the LVMPD Laboratory is up for renewal in
June 2013.




                                    -6-
                                FINDINGS

     I.     Compliance with NDIS Participation Requirements

            The LVMPD Laboratory was in compliance with NDIS
            participation requirements regarding updated NDIS
            eligibility training for its personnel, maintenance of
            CODIS-related training and proficiency- testing
            records for CODIS users, timeliness of NDIS
            matches, backing up the CODIS server in accordance
            with NDIS requirements, and timely submission of
            external audits to the FBI.

       The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the LVMPD
Laboratory and the FBI. The NDIS Procedure Manual is comprised of the
NDIS operational procedures and provides detailed instructions for
laboratories to follow when performing certain procedures pertinent to NDIS.
The NDIS participation requirements we reviewed are listed in Appendix II of
this report.

Results of the OIG Audit

       We found that the LVMPD Laboratory complied with the NDIS
participation requirements we reviewed. Specifically, we found that the
LVMPD Laboratory was in compliance with NDIS participation requirements
regarding updated NDIS eligibility training for its personnel, maintenance of
CODIS-related training and proficiency-testing records for CODIS users,
timeliness of NDIS matches, backing up its CODIS server in accordance with
NDIS requirements, and timely submission of external audits to the FBI.
These results are described in more detail below.

     •    The NDIS General Responsibilities Operational Procedures manual
          in effect during our audit required that participating laboratories
          ensure that CODIS users are notified of and provided access to
          revised NDIS Operational Procedures and other documentation
          necessary to properly participate in NDIS. All LVMPD Laboratory
          forensic personnel have access to the manual on the FBI’s Criminal
          Justice Information System—Wide Area Network (CJIS-WAN). In
          addition, the LVMPD Laboratory’s CODIS Administrator stated that
          she also keeps a copy of the NDIS procedure manual on her desk
          where it is available to be perused by her staff. We selected 2 of

                                     -7-
    the 10 CODIS users to interview and determined that both users
    were aware of the NDIS procedures and could access the
    procedures on the CJIS-WAN.

•   LVMPD Laboratory’s CODIS users are required to complete annual
    DNA Records Acceptance training. The FBI provided a list of LVMPD
    Laboratory personnel who had received this mandatory annual
    training, which we compared to a similar list provided by the LVMPD
    Laboratory. We found that all authorized personnel on the FBI’s list
    have successfully completed the annual training in 2011.

•   For each CODIS user, the FBI requires that a participating
    laboratory submit fingerprint cards, background information, CODIS
    user information, and other appropriate documentation to the FBI.
    We verified that all necessary documents were provided to the FBI
    for all 10 LVMPD Laboratory CODIS users.

•   At the time of our audit, the NDIS General Responsibilities
    Operational Procedures manual required participating laboratories
    to maintain records of CODIS users, including reports concerning
    proficiency testing, and any other reports or audits required by the
    FBI. The LVMPD Laboratory’s policy requires that for its CODIS
    users personnel files are to be maintained for 30 years after the
    employee has left the Laboratory and training files are to be
    maintained for 5 years after the employee has left the Laboratory,
    this local policy was in compliance with the NDIS Operational
    Procedures.

•   The NDIS Interstate Candidate Match Operational Procedures
    provides guidance for participating laboratories to follow when
    confirming matches that are identified in the CODIS system. We
    reviewed a sample of five NDIS matches and determined:

    o The LVMPD Laboratory sent confirmation requests in a timely
      manner for all five matches;

    o Confirmation generally took place within 30 days after the
      originating laboratory’s request was sent out for four of the five
      matches. For the one late match confirmation, the process took
      115 days because another laboratory did not confirm the match
      request submitted by the LVMPD Laboratory in a timely
      manner; and

    o The LVMPD Laboratory notified investigators of match
      confirmation within 2 weeks for all five matches.
                               -8-
     •   The NDIS Security Requirements state the CODIS server shall be
         electronically safeguarded from unauthorized use and be only
         accessible to a limited number of approved personnel. We found
         that only CODIS users within the LVMPD Laboratory had access to
         CODIS. Access to the CODIS database is further limited, as only
         authorized personnel had access to the locked room that contained
         the CODIS terminals and server. We were informed that all LVMPD
         CODIS users had their own CODIS accounts, unique passwords, and
         must undergo annual CODIS training. Moreover, the LVMPD
         Laboratory’s in-house policy limited access to the CODIS database
         to CODIS users only, required daily backups of its CODIS server,
         and required that the backed up material be transferred off-site on
         a monthly basis.

     •   The NDIS Security Requirements state that only authorized
         personnel shall have physical access to the CODIS server, and that
         locating a CODIS terminal and server in a common data center may
         be permitted as long as the data center is located within the
         criminal justice agency and has physical security. The CODIS
         server was stored in a room in the forensic laboratory behind
         cipher-locked doors. Access to CODIS terminals and the server was
         currently limited to CODIS users. We observed the location and
         accessibility of the CODIS server and found it to be in compliance
         with NDIS Security Requirements.

     •   The NDIS operational procedure entitled External Audit Review
         Procedures requires that an external quality assurance review be
         forwarded to the FBI’s NDIS Custodian within 30 days of the
         participating laboratory’s receipt of the report. We reviewed the
         submission of the most recent external review and found that the
         report was submitted to the FBI’s NDIS Custodian within 30 days.

Conclusion

       We found that the LVMPD Laboratory was in compliance with NDIS
participation requirements regarding updated NDIS eligibility training for
LVMPD Laboratory personnel, maintenance of training and proficiency-
testing records for CODIS users, timeliness of NDIS matches, creating
backups of its CODIS server on a daily basis and transferring the backed up
material off-site on a monthly basis, and timely submitted external audits to
the FBI. Based on our review, we made no recommendations concerning the
LVMPD Laboratory’s compliance with the NDIS participation requirements.




                                    -9-
       II.     Compliance with Quality Assurance Standards

               We found that the LVMPD Laboratory complied with
               the Quality Assurance Standards (QAS) issued by the
               FBI. Specifically, we found that the LVMPD
               Laboratory: (1) followed protocols with regard to
               amplified samples being maintained in separate
               rooms from the evidence examination, DNA
               extraction, and PCR setup areas, (2) underwent
               Quality Assurance Standard reviews within
               designated timeframes, and (3) had procedures in
               place to help ensure that access to the Laboratory
               was controlled and limited to authorized personnel.

       During our audit, we considered the Forensic QAS issued by the FBI. 7
These standards describe the quality assurance requirements that the
LVMPD Laboratory must follow to ensure the quality and integrity of the data
it produces. We also assessed the two most recent QAS reviews that the
LVMPD Laboratory underwent. 8 The QAS we reviewed are listed in
Appendix II.

Results of the OIG Audit

      We found that the LVMPD Laboratory complied with the QAS issued by
the FBI. Specifically, we found that the LVMPD Laboratory: (1) followed
protocols with regard to amplified samples being maintained in separate
rooms from the evidence examination, DNA extraction, and PCR setup
areas; (2) underwent QAS reviews within designated timeframes; and
(3) had procedures in place to help ensure that access to the Laboratory was
controlled and limited to authorized personnel. These results are described
in more detail below.

       •     The QAS requires amplified DNA to be maintained at separate times
             or in separate spaces from the evidence examination, DNA

       7
        Quality Assurance Standards refer to the Quality Assurance Standards for Forensic
DNA Testing Laboratories and DNA Databasing Laboratories, effective July 1, 2009.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.
                                          - 10 -
    extraction, and polymerase chain reaction (PCR) setup processes.
    We observed that the LVMPD Laboratory had separate rooms for
    DNA examination and extraction, PCR setup, and DNA amplification.
    Known and unknown samples were separated by time and space
    during the PCR setup and all evidence flowed one-way to avoid
    amplified DNA from being introduced into Pre-PCR areas of the
    laboratory. When we visited the LVMPD Laboratory, doors in the
    post-PCR areas of the laboratory were closed. Based upon our
    observations, we did not identify any material deficiencies with
    regard to the LVMPD Laboratory performing various DNA analysis
    processes in separate times and separate spaces.

•   We reviewed the LVMPD Laboratory’s policy for evidence sample
    control, which states that evidence is to be secured off-site at the
    Las Vegas Metropolitan Police Department’s Criminalistics Bureau
    Vault and brought over when needed to the LVMPD Laboratory’s on-
    site vault. When we visited the LVMPD Laboratory, we observed
    that the LVMPD Laboratory’s on-site vault was secure and access
    was limited by key cards issued only to Laboratory Managers,
    Evidence Technicians, and Laboratory Aides. In addition, the chain
    of custody was documented in the LVMPD Laboratory’s evidence
    retrieval system known as WinACE. The electronic log identified
    where and with whom each piece of evidence was located in the
    LVMPD Laboratory. For example, to retrieve evidence from the off-
    site Criminalistics Bureau Vault DNA Analysts were required to
    submit an electronic request into WinACE. Upon retrieval, DNA
    Analysts are required to sign a list affixed to the outside of each
    evidence package each time the evidence is checked out. During
    testing and while the evidence is not in custody of the DNA Analyst,
    DNA Analysts are required to secure the evidence in individually
    assigned locked storage spaces. Upon completion of DNA analysis,
    the LVMPD Laboratory’s procedure is to return the evidence to the
    off-site Criminalistics Bureau Vault. Based on these procedures, the
    integrity of physical evidence is maintained by the LVMPD
    Laboratory in accordance with the QAS requirements that we
    tested.

•   We learned that as of September 2011, the LVMPD Laboratory did
    not outsource the analysis of its forensic DNA or convicted offender
    samples to another laboratory and has not done so in the past
    2 years.

•   The QAS requires laboratories to undergo an annual review,
    including an external review every 2 years. During our fieldwork in
    September 2011, we found that the LVMPD Laboratory had an
                              - 11 -
    external QAS review performed in May 2010 and an internal QAS
    review performed in March 2011 in accordance with the FBI’s
    requirement.

•   We reviewed the LVMPD Laboratory’s prior 2 years of QAS review
    reports. Both the internal and external reviews were conducted
    using the FBI’s QAS Review Document. The FBI confirmed that at
    least one of the QAS reviewers for both reviews had successfully
    completed the FBI QAS Review training course.

    o The external QAS review conducted in May 2010, noted that
      LVMPD Laboratory did not: (1) calibrate its UV Crosslinkers
      timely; (2) conduct annual preventative maintenance for the
      3130XL timely; (3) perform monthly rebooting of computers and
      checking of available disk space in a timely manner; and
      (4) ensure the team that performed the previous internal audit
      contained a qualified analyst from a databasing laboratory, as
      required. We reviewed the LVMPD Laboratory’s corrective
      actions that it took to remedy these findings, including: the
      establishment of new policies and procedures to ensure
      calibration and timely rebooting of computer systems; the
      creation of a master calendar listing all equipment in the
      laboratory requiring maintenance or calibration; and the
      issuance of administrative directives to ensure all members of
      the audit team are qualified to audit a databasing laboratory.
      We found, that the LVMPD Laboratory addressed all the findings
      in the May 2010 external review.

    o The internal QAS review conducted in March 2011, noted that
      the LVMPD Laboratory: (1) did not check available disk space in
      a timely manner; (2) failed to properly approve revised policies
      and procedures in the LVMPD Laboratory’s Forensic Handbook;
      (3) did not have a clearly written policy for the retention of
      sample receipts, processing records, sample retention or hit
      confirmations; (4) did not adequately safeguard the key to the
      lock box containing the evidence locker keys; and (5) failed to
      safeguard evidence locker keys against loss or unauthorized use.
      We reviewed the LVMPD Laboratory’s corrective actions that it
      took to remedy these findings including: the establishment of
      new policies and procedures to check available disk space in a
      timely manner, and the creation of a maintenance log to track
      and ensure timely checks of available disk space. The LVMPD
      Laboratory approved and updated the policy for the retention of
      sample receipts, processing records, and hit confirmations in the
      LVMPD Laboratory’s Forensic Handbook. The LVMPD Laboratory
                              - 12 -
            restricted access to the evidence locker keys by removing the
            key to the lock box, making copies of the restricted access
            evidence locker key and distributed the keys only to LVMPD
            Laboratory management. We found that the LVMPD Laboratory
            addressed the findings in the March 2011 internal review.

     •   We also asked each of the QAS reviewers who conducted the most
         recent external QAS reviews to certify that they had no
         impairments to independence. All QAS reviewers provided us with
         this certification.

     •   We reviewed the LVMPD Laboratory’s policies on physical security of
         the facility, as well as the cipher locks and key card assignments to
         LVMPD Laboratory personnel for access to the secured areas of the
         Laboratory. We observed during our tour, that the facility was
         locked and closed off to the public. We also observed that
         authorized LVMPD Laboratory personnel entered the laboratory’s
         facility using their key cards. All other visitors were required to
         push the call button and speak to a receptionist in order to gain
         entry through the front doors of the building. Once inside in the
         administrative office space, visitors were required to sign a log-in
         sheet in order to obtain a badge and they were required to be
         escorted by a staff member at all times while in the LVMPD
         Laboratory’s facilities. The doors leading into the interior
         laboratories were secure with cipher combination locks and were
         limited only to authorized personnel. We found that overall
         external and internal security at the LVMPD Laboratory to be
         adequate and in compliance with the QAS requirements we tested.

Conclusion

       We found that the LVMPD Laboratory complied with the FBI’s Forensic
QAS that we tested. Specifically, we found that the LVMPD Laboratory:
(1) followed protocols with regard to amplified samples being maintained in
separate rooms from the evidence examination, DNA extraction, and PCR
setup areas; (2) underwent QAS reviews within designated timeframes; and
(3) had procedures in place to ensure that access to the Laboratory was
controlled and limited to authorized personnel. Based on our review, we
made no recommendations concerning the LVMPD Laboratory’s compliance
with QAS.




                                   - 13 -
      III. Suitability of Forensic DNA Profiles in CODIS Databases

            We found that 7 of the 100 forensic DNA profiles we
            reviewed did not meet NDIS standards and two more
            profiles were deemed inappropriate for inclusion in
            NDIS. Specifically, we identified the following
            unallowable profiles: (1) one profile matched the
            victim’s DNA profile; (2) three profiles were obtained
            from the suspect’s person or residence; (3) one
            profile was not attributable to a putative perpetrator;
            and (4) two profiles were obtained from items that
            were not connected to a crime. An additional profile
            was deemed inappropriate for inclusion in NDIS
            because the laboratory had not yet attempted to
            obtain an elimination standard to rule out the victim
            as the source of the DNA. The LVMPD Laboratory
            deemed yet another profile inappropriate for NDIS
            because the profile was based on a mixture
            containing DNA from several individuals with no
            major contributor. In addition to the nine profiles
            removed, the LVMPD Laboratory removed another
            two profiles that were not part of our sample, but
            were associated with the profiles we tested in our
            sample. In total, the LVMPD Laboratory removed
            11 profiles from NDIS.

       We reviewed a sample of the LVMPD Laboratory’s Forensic DNA
profiles to determine whether each profile was complete, accurate, and
allowable for inclusion in NDIS. To test the completeness and accuracy of
each profile, we established standards that require a profile include all the
loci for which the analyst obtained results, and that the values at each locus
match those identified during analysis. Our standards are described in more
detail in Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime.
For instance, a profile from an item that was seized from the suspect’s
                                    - 14 -
person, such as a shirt, or that was in the possession of the suspect when
collected is generally not a forensic unknown and would not be allowable for
upload to NDIS. The NDIS procedures we reviewed are listed in Appendix II
of this report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 2,650 forensic profiles
that the LVMPD Laboratory had uploaded into NDIS as of August 26, 2011.
Of the 100 forensic profiles sampled, we found that 7 profiles were
unallowable for upload to NDIS and another two profiles were deemed
inappropriate for upload to NDIS. The remaining profiles sampled were
complete, accurate, and allowable for inclusion in NDIS. In addition to our
sampled profiles, we found two more unallowable profiles uploaded to NDIS
that were associated with the unallowable profiles we identified as part of
our sample testing. In total, the LVMPD Laboratory removed 11 profiles
from NDIS. The specific exceptions are explained in more detail below.

Sample Number NV-18

      Sample NV-18 was taken from an empty whiskey bottle found near the
crime scene of a homicide. We deemed this profile to be unallowable
because it was developed from the whiskey bottle, which the police could not
connect to the crime. In addition, the profile did not contain the required
10 core loci to be auto-searched in NDIS. We presented this to the LVMPD
Laboratory CODIS Administrator, who agreed that since the profile was not
developed from evidence connected to the crime and since the profile did
not have the required 10 core loci; the profile was unallowable and the
LVMPD Laboratory removed it from CODIS.

Sample Number NV-25

       Sample NV-25 was taken from a trash can found in the suspect’s
residence where a sexual assault occurred. We deemed this profile to be
unallowable because it was taken from the suspect’s residence and is not a
forensic unknown profile, but rather a deduced suspect profile. Deduced
suspect profiles are not allowed to be uploaded to CODIS. We presented
this to the LVMPD Laboratory CODIS Administrator, who agreed that this
profile was unallowable and the LVMPD Laboratory removed it from CODIS.

Sample Number NV-28

      Sample NV-28 was taken from a male victim’s shorts obtained during
the investigation of a sexual assault. After reviewing this profile that was
uploaded to NDIS, we deemed it to be unallowable because the profile
                                   - 15 -
matched the victim’s profile. Victim profiles are unallowable for upload
to CODIS. We presented this to the CODIS Administrator, who agreed that
this profile was unallowable and the LVMPD Laboratory removed it from
CODIS.

Sample Number NV-44

      Sample NV-44 was a blood swab taken from the concrete surface of an
apartment parking lot where a homicide had occurred. The suspects in the
case shot and killed one victim, and hit another victim in the head with a
weapon. The LVMPD Laboratory processed an elimination standard for the
deceased victim; however it did not attempt to obtain an elimination
standard for the injured victim. We presented this to the LVMPD Laboratory
CODIS Administrator, who removed the inappropriate profile and one other
related profile taken from the same crime scene from CODIS. The LVMPD
Laboratory CODIS Administrator stated she would attempt to obtain an
elimination standard from the injured victim in order to verify that neither of
the two victims was uploaded into CODIS. If the LVMPD Laboratory verifies
that the profile does not belong to the other victim, then this profile could be
placed back in to CODIS.

Sample Number NV-58

      Sample NV-58 was taken from the cigarette butt found on the sidewalk
located near an apartment complex. The crime being investigated was a
homicide which occurred inside one of the apartments. The cigarette butt
was found near the apartment’s covered parking spaces and trash
dumpsters. We deemed this profile to be unallowable because the
information in the case file did not connect the item to a putative
perpetrator. We presented this to the LVMPD Laboratory CODIS
Administrator, who agreed that this profile was unallowable and the LVMPD
Laboratory removed it from CODIS. Further, the LVMPD Laboratory
removed an additional profile from CODIS that had been taken from another
cigarette butt found in the same location.

Sample Number NV-59

      Sample NV-59 was taken from a tissue found at the suspect’s
residence. We deemed this profile to be unallowable because it was taken
from the suspect’s residence and it was not a forensic unknown profile, but
rather a deduced suspect profile. Deduced suspect profiles are not allowable
for upload to CODIS. We presented this to the LVMPD Laboratory CODIS
Administrator, who agreed that this profile was unallowable and the LVMPD
Laboratory removed it from CODIS.

                                    - 16 -
Sample Number NV-68

       Sample NV-68 was taken from an orange cigarette filter found at the
crime scene of a suspicious death investigation. The LVMPD Laboratory’s
case file lacked information regarding the location of the cigarette filter
relative to the scene of the suspicious death. In addition, this cigarette butt
was collected 11 days after the suspicious death, the crime scene had been
unsealed, and the residence (the location of the crime scene) had been
cleaned. Therefore, we deemed this profile unallowable because we could
not connect it to a crime. We presented this to the LVMPD Laboratory
CODIS Administrator, who agreed that this profile was unallowable and the
LVMPD Laboratory removed it from CODIS.

Sample Number NV-75

       Sample NV-75 was taken from a swab of the trigger of a handgun that
was used in an assault and robbery. The LVMPD Laboratory deemed this
profile inappropriate for CODIS because it was a mixture of three individuals
with no major contributor. The Laboratory removed the profile from CODIS.

Sample Number NV-79

      Sample NV-79 was taken from a white sock collected directly from the
suspect. We deemed this profile to be unallowable because it is not a
forensic unknown profile, but rather a deduced suspect profile. We
presented this to the LVMPD Laboratory CODIS Administrator, who agreed
that this profile was unallowable and the LVMPD Laboratory removed it from
CODIS.

Conclusion

      Based on our testing of 100 sample forensic profiles that the LVMPD
Laboratory uploaded to NDIS, we found 91 profiles were complete, accurate,
and allowable for inclusion in NDIS, but we questioned the Laboratory’s
upload of 7 forensic profiles that do not meet the standards for NDIS. The
Laboratory agreed and removed all seven unallowable profiles. We also
confirmed that the LVMPD Laboratory removed two more profiles from our
sample that we deemed inappropriate for CODIS, as well as an additional
two profiles associated, but not part of our sample of 100 forensic profiles.
Because the LVMPD Laboratory took corrective action on all 11 profiles, we
make no recommendations concerning the suitability of LVMPD Laboratory’s
forensic DNA profiles that are in CODIS.




                                    - 17 -
                                                                         APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from September 2009 through
August 2011. The objectives of the audit were to determine if the:
(1) LVMPD Laboratory was in compliance with the NDIS participation
requirements; (2) LVMPD Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) LVMPD Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. To accomplish the objectives of the audit,
we:

       •   Examined internal and external Laboratory QAS review reports and
           supporting documentation for corrective action taken, if any, to
           determine whether: (a) the LVMPD Laboratory complied with the
           QAS, (b) repeat findings were identified, and (c) recommendations
           were adequately resolved.9

           In accordance with the QAS, the internal and external laboratory
           review procedures address, at a minimum, a laboratory’s quality
           assurance program, organization and management, personnel
           qualifications, facilities, evidence control, validation of methods and
           procedures, analytical procedures, calibration and maintenance of
           instruments and equipment, proficiency testing of analysts, corrective
           action for discrepancies and errors, review of case files, reports,
           safety, and previous audits. The QAS require that internal and
           external reviews be performed by personnel who have successfully
           completed the FBI’s training course for conducting such reviews.

       9
          The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.
                                          - 18 -
    As permitted by Government Auditing Standards (GAS) 7.42 (2007
    revision), we generally relied on the results of the LVMPD
    Laboratory’s external laboratory review to determine if the LVMPD
    Laboratory complied with the QAS. In order to rely on the work of
    non-auditors, GAS requires that we perform procedures to obtain
    sufficient evidence that the work can be relied upon. Therefore,
    we: (1) obtained evidence concerning the qualifications and
    independence of the individuals who conducted the review; and
    (2) determined that the scope, quality, and timing of the audit work
    performed was adequate for reliance in the context of the current
    audit objectives by reviewing the evaluation procedure guide and
    resultant findings to understand the methods and significant
    assumptions used by the individuals conducting the reviews. Based
    on this work, we determined that we could rely on the results of the
    LVMPD Laboratory’s external laboratory review.

•   Interviewed LVMPD Laboratory officials to identify management
    controls, LVMPD Laboratory operational policies and procedures,
    LVMPD Laboratory certifications or accreditations, and analytical
    information related to DNA profiles.

•   Toured the LVMPD Laboratory to observe facility security measures
    as well as the procedures and controls related to the receipt,
    processing, analyzing, and storage of forensic evidence and convicted
    offender DNA samples.

•   Reviewed the LVMPD Laboratory’s written policies and procedures
    related to conducting internal reviews, resolving review findings,
    expunging DNA profiles from NDIS, and resolving matches among
    DNA profiles in NDIS.

•   Reviewed supporting documentation for 5 of 391 NDIS matches to
    determine whether they were resolved in a timely manner. The
    LVMPD Laboratory provided the universe of NDIS matches as of
    September 26, 2011. The sample was judgmentally selected to
    include both case-to-case and case-to-offender matches. This non-
    statistical sample does not allow projection of the test results to all
    matches.

•   Reviewed the case files for selected forensic DNA profiles to
    determine if the profiles were developed in accordance with the
    Forensic QAS and were complete, accurate, and allowable for
    inclusion in NDIS.



                                - 19 -
         Working in conjunction with the contractor used by the FBI, we
         obtained an electronic file identifying the 2,650 (STR) forensic
         profiles the LVMPD Laboratory had uploaded to NDIS as of August 26,
         2011. We limited our review to a sample of 100 profiles. This
         sample size was determined judgmentally because preliminary audit
         work determined that risk was not unacceptably high.

     •   Using the judgmentally-determined sample size, we randomly
         selected a representative sample of labels associated with specific
         profiles in our universe to reduce the effect of any patterns in the list
         of profiles provided to us. However, since the sample size was
         judgmentally determined, the results obtained from testing this
         limited sample of profiles may not be projected to the universe of
         profiles from which the sample was selected.

      The objectives of our audit concerned the LVMPD Laboratory's
compliance with required standards and the related internal controls.
Accordingly, we did not attach a separate statement on compliance with laws
and regulations or a statement on internal controls to this report. See
Appendix II for detailed information on our audit criteria.




                                     - 20 -
                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). We did not test
for compliance with elements that were not applicable to the LVMPD
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

       •    DNA Data Acceptance Standards
       •    DNA Data Accepted at NDIS
       •    Quality Assurance Standards (QAS) Reviews
       •    NDIS DNA Autosearches
       •    Confirm an Interstate Candidate Match
       •    General Responsibilities
       •    Initiate and Maintain a Laboratory’s Participation in NDIS
       •    Security Requirements
       •    CODIS Users
       •    CODIS Administrator Responsibilities
       •    Access to, and Disclosure of, DNA Records and Samples
       •    Upload of DNA Records
       •    Expunge a DNA Record
       •    The FBI Flowchart: A Guide to Determining What is Allowable in
            the Forensic Index at NDIS 10




       10
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
CODIS Administrator’s Handbook and has been provided to laboratories in forums such as
CODIS conference.
                                          - 21 -
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009
(Offender QAS). The Forensic QAS and the Offender QAS describe the
quality assurance requirements that the LVMPD Laboratory should follow to
ensure the quality and integrity of the data it produces.

      For our audit, we generally relied on the reported results of the LVMPD
Laboratory’s most recent annual external review to determine if the LVMPD
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the LVMPD Laboratory was in compliance with the
QAS listed below because they have a substantial effect on the integrity of
the DNA profiles uploaded to NDIS.

     •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

     •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

     •   Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of database and known samples.

     •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

     •   Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

         (Offender QAS Standard 12.1): The laboratory shall have and follow
         written procedures for reviewing DNA records and DNA database
         information, including the resolution of database matches.




                                     - 22 -
     •   Reviews (Forensic QAS and Offender QAS 15.1 and 15.2): The
         laboratory shall be audited annually in accordance with [the QAS].
         The annual audits shall occur every calendar year and shall be at
         least 6 months and no more than 18 months apart.

         At least once every 2 years, an external audit shall be conducted by
         an audit team comprised of qualified auditors from a second
         agency(ies) and having at least one team member who is or has
         been previously qualified in the laboratory’s current DNA
         technologies and platform.

     •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
         vendor laboratory performing forensic and database DNA analysis
         shall comply with these Standards and the accreditation requirements
         of federal law.

         Forensic QAS 17.4: An NDIS participating laboratory shall have and
         follow a procedure to verify the integrity of the DNA data received
         through the performance of the technical review of DNA data from a
         vendor laboratory.

         Offender QAS Standard 17.4: An NDIS participating laboratory shall
         have, follow and document appropriate quality assurance procedures
         to verify the integrity of the data received from the vendor laboratory
         including, but not limited to, the following: Random reanalysis of
         database, known or casework reference samples; Inclusion of QC
         samples; Performance of an on-site visit by an NDIS participating
         laboratory or multi-laboratory system outsourcing DNA sample(s) to
         a vendor laboratory or accepting ownership of DNA data from a
         vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •   Completeness of DNA Profiles: A profile must include each value
         returned at each locus for which the analyst obtained results. Our
         rationale for this standard is that the probability of a false match
         among DNA profiles is reduced as the number of loci included in a
         profile increases. A false match would require the unnecessary use
         of laboratory resources to refute the match.



                                    - 23 -
•   Accuracy of DNA Profiles: The values at each locus of a profile
    must match those identified during analysis. Our rationale for this
    standard is that inaccurate profiles may: (1) preclude DNA profiles
    from being matched and, therefore, the potential to link convicted
    offenders to a crime or to link previously unrelated crimes to each
    other may be lost; or (2) result in a false match that would require
    the unnecessary use of laboratory resources to refute the match.


•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement
    personnel of NDIS matches within 2 weeks of the match
    confirmation date, unless there are extenuating circumstances. Our
    rationale for this standard is that untimely notification of law
    enforcement personnel may result in the suspected perpetrator
    committing additional, and possibly more egregious, crimes if the
    individual is not deceased or already incarcerated for the
    commission of other crimes.




                              - 24 -
                                                                                               APPENDIX III


                          AUDITEE RESPONSE




April 19, 2012


Mr. David J Gaschke
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General (DIG)
San Francisco Regional Audit OffICe
1200 Bayh~1 Drive # 201
San Bruno, CA 94066


Dear Mr. Gaschke:

This letter is in response to the DIG draft report on the Audit of Compliance with
Standards Goveming Combined DNA Index System Activities at the Las Vegas
Metropolitan Police Departmenfs (LVMPD) Forensic laboratory.

The LVMPD reviewed the draft audit report and has no commenlS to provide regarding
the report.

The LVMPD appreciates the opportunity to respond to the DIG draft audit report. If you
have any questions, please feel free to contact me.


                                              Sincerely,


                                              DOUGLAS C. GILLESPIE, SHERIFF


                              =--=C;;;;;.; ,~
                                     BY:      Tracy Bir • Director
                                              Forensic Laboratory
                                              Las Vegas Metropolitan Police Dept.
                                              5605 W . Badura Ave. Suite 120 B
                                              Las Vegas, NV 89118-4705
                                              T2742B@lvmpd.com
                                              (702) 828-3932
                                              FAX (702) 828-3948


CC: Doug Hares - FBI laboratory




                       400 S!-..rt A-."" • lot Vegoll, Ne<.<odo 89101 -2984 • (702) 795-3111
                                     www.lvmpd.com • www.prOltodlhecity.c:om



                                              - 25 - 

                                                                                             APPENDIX IV


      DEPARTMENT OF JUSTICE RESPONSE





                                                             u.s. Dt>partment or Ju st ioe

                                                            Federal Bureau ofln\'es1igali(m



                                                            w..ninilOO- D.C. 10515..0001

                                                             May 2,2012


David J. Gaschke
Regional Audit Manager
San Francisco Regional Audit Office
Office ofthe Inspector General
1200 Bayhill Drive, Suite 201
San Bruno, CA 94066



Dear Mr. Gaschke:

               Your memorandum to Director Mueller forwarding the draft audit report for the
Las Vegas Metropolitan Police Department's Forensic Laboratory, Las Vegas, Nevada
(Laboratory), has been referred to me for response.
                Your draft report contained no recommendations relating to the laboratory's
compliance with the FBI's Memorandum of Understanding and Qllality Assllrance Slandards
DNA Tes/ing Labora/oriesand DNA Dalabasing Laboratories. The CODIS Unit reviewed the
draft report and since it appears that Ihe Laboratory is in compliance with NO IS participation
requirements, the COOlS Unit has no significant comments to provide about the draft report.
                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer Wendel, Chief of the COOlS Unit, at (703) 632·8315.

                                                            Sincerely,




                                                            Anthony J. Onorato
                                                            Acting Section Chief
                                                            Biometrics Analysis Section
                                                            FBI Laboratory




                                           - 26 - 

